IN THE
SUPREME COURT OF THE UNITED STATES
QIHTJI HUANG Petitioner,
v
AJIT' VARADARAJ PAI, Respondent
Petitioner submits her certificates here.
Certificate 'Words, Fonts, and More, of
Petition for Writ of Certiorari
Based on her "best knowledge, Petitioner certifies that her “Petition for Writ
of Certiorari” met all Rule 33 regulated: Test fields aid not exceed 4 1/8 by 7 1/8
inches. 6 1/8 by 9 V* inch size booklet. Century Schoolbook 12-point fonts with 2point between lines. Footnotes are 10-point with 2-point between lines; Papers are
not less 60 pounds, cover is about 65 pounds. For not including the questions
presented, the list of parties, and the table of consents, the table of authorities,
Appendix, there are total about 5,377 words, possibly included footnotes.
Certificate of Services
Petitioner certifies that she would serve three copies of “Petition for Writ
of Certiorari” to Mr. Noel Francisco, US Solicitor General, at mail office of U.8.
Solicitor Office, 950 Pennsylvania Ave NW, Washington, DC 20530. If failed, she
would mail to him at above address; around September 12, 2019.
Qihui Huang, Petitioner
LJ
R0. Box 34014
V ilMa, MB 20827
MU40) 423-0406
qhh@hotrnail.com
Dated: September 12, 2019

